IMPORTANT INFORMATION REGARDING OUR CREDIT CARDS
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE (APR) for:
• All Purchases
• Balance Transfers
•
Cash Advances
Paying Interest

For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
Transaction Fees
• Balance Transfer Fee
• Cash Advance Fee
• Currency Conversion Transaction
Fee
• International Transaction Fee
Penalty Fees
• Late Payment Fee
• Returned Payment Fee
• Over the Limit Fee
Other Fees
• Card Replacement Fee
• Copying Fee
• Special Processing Fee

25.99% APR
Your due date is at least 25 days after the close of each billing cycle. We will not impose
interest charges on purchases or balance transfers if you pay your entire balance in full
by the due date each month. We will begin charging interest on cash advances on the
transaction date.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore
NONE

NONE
$5.00 or 2% of the amount advanced, whichever is greater
1.0% of each transaction in US dollars, if currency conversion occurs.
0.8% of each transaction in US dollars, if no currency conversion occurs.
Up to $25.00
Up to $25.00
NONE
$5.00 per card replaced prior to the normal reissue date.
$4.00 per-page fee for copies of transaction documents or statements unless we are
required to provide them when resolving a billing dispute.
$35.00 per card for expedited processing and delivery, if available and offered.

HOW WE WILL CALCULATE YOUR BALANCE: We use a method called, “average daily balance (including new purchases and balance transfers).”
See the Card Agreement for more details.
The disclosures above are accurate as of the printing date of March 10, 2021 and are subject to change thereafter. Please contact us for information
on any changes, call 888-929-2265 or by writing to us at the following address:
Armed Forces Bank, N.A.
Attn: Credit Card Department
PO Box 26458
Kansas City, MO 64196

Revision dated 3-10-2021

Revision dated 3-10-2021

